 EFFECTIVENESS OF THE SMALL BUSINESS 

ADMINISTRATION'S SURVEILLANCE REVIEW 

              PROCESS 

             Report Number: 11-11 

           Date Issued: March 31, 2011 

             u.s. Small Business Administration
             Office of Inspector General                                  Memorandum
     To: 	   Joseph G. Jordan                                                               Date:      March 31, 2011
             Associate Administrator, Government Contracting and
             Business Development
             lsi Original Signed
  From:      Peter L. McClintock
             Deputy Inspector General

Subject: 	   Effectiveness of the Small Business Administration's Surveillance Review Process,
             Report No. 11-11

             This report presents the results of our audit of the Effectiveness of the Small Business
             Administration's (SBA) Surveillance Review Process. Our audit objectives were to
             determine whether: (1) SBA's small business and 8(a) surveillance reviews adequately
             assessed the small business programs of contracting activities; and (2) appropriate action
             was taken to ensure that areas of non-compliance were corrected in a timely manner.

             To determine the adequacy of surveillance reviews, we analyzed reports from
             30 reviews l conducted in fiscal year (FY) 2009 and available supporting documentation?
             We compared SBA's report contents, interviews, and contract analysis checklists to
             requirements in the Federal Acquisition Regulation (FAR) and applicable SBA
             regulations. We also compared each review team's use of checklists, sampling
             methodologies, and rating criteria to determine consistency in performing the
             assessments. Because only 16 of the 30 review teams documented the sampling universe
             from which they selected contract actions for review, we could not determine the
             percentage of contract actions reviewed by all teams. We interviewed personnel
             responsible for conducting and overseeing surveillance reviews within SBA's Office of
             Government Contracting (GC). We also reviewed SBA and Federal regulations
             governing small business procurement and agency procedures to identify and evaluate
             materials used to perform surveillance reviews. Further, we determined the elapsed time
             between headquarters' receipt of draft surveillance review reports for FY 2009 and
             issuance of those reports to contracting activities.

             To address whether appropriate action was taken in a timely manner, we interviewed
             SBA personnel and procurement officials at the contracting activities regarding corrective


             ISBA reported that it conducted 32 reviews in FY 2009, however, we determined 30 reviews were completed because
              (1) SBA was unable to gain access to a contracting activity in a reasonable amount of time, and (2) one contracting
              activity sold timber, which was not a procurement activity.
             2Supporting documentation was not available for six surveillance review reports.
actions taken in response to recommendations from SBA's FYs 2007 and 2008
surveillance reviews. We also interviewed SBA officials to determine the extent of
follow-up conducted to ensure deficiencies were corrected. We did not review contract
files to determine if surveillance review teams reached the proper conclusion, or
corroborate statements made by contracting activities concerning their efforts to address
recommendations. Detailed information concerning our audit scope and methodology
can be found in Appendix I. We performed our audit between August 2009 and August
2010 in accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States.

BACKGROUND
SBA plays an important role in ensuring that small businesses gain access to Federal
contracting opportunities. In an effort for the Federal government to collectively meet
the 23-percent statutory goal for contract dollars awarded to small businesses, SBA
negotiates agency-specific goals. SBA also establishes goals for individual
socioeconomic programs, such as SBA's Historically Underutilized Business Zones, 8(a)
Business Development, and women-owned small businesses. However, goal attainment
is primarily the responsibility of Federal procuring agencies. Also, while SBA helps
eligible socially and economically disadvantaged 8(a) firms compete in the economy
through various business development activities, SBA has delegated its 8(a) contract
execution functions to procuring agencies through partnership agreements. These
partnership agreements establish the responsibilities between SBA and the procuring
agencies for oversight, monitoring, and compliance with procurement laws and
regulations governing 8(a) contracts. Under the 8(a) partnership agreements, SBA retains
the right to perform on-site reviews to determine whether agencies have properly
executed 8(a) contracts and monitored compliance with 8(a) regulations.

Although SBA is heavily reliant on Federal agencies to maximize procurement
opportunities for small businesses, SBA is ultimately responsible for ensuring that
businesses receive a fair and equitable opportunity to participate in Federal contracts and
subcontracts and for ensuring that 8(a) companies comply with 8(a) program regulations.
To fulfill this responsibility, SBA conducts annual surveillance reviews of selected
contracting activities. Surveillance reviews, which serve as a small business evaluation
activity, are authorized by the Small Business Act and the FAR. Specifically, the Small
Business Ace authorizes Procurement Center Representatives 4 (PCR) to monitor the
performance of contracting activities to which they are assigned for small business
opportunities. Similarly, FAR 19 A02(c)( 5), Small Business Programs, authorizes SBA
to conduct surveillance reviews to assess Federal agencies' management of their small
business programs and compliance with regulations and applicable procedures.




3   Section 15(m)(2) of the Small Business Act.
4   SBA procurement analysts and engineers are located throughout the nation at major military and civilian Federal
    buying activities to ensure small businesses have a fair and equitable opportunity to compete for Federal
    procurements.



                                                            2

SBA's GC office manages the surveillance reviews, which are performed by teams in
GC's six area offices. Area Directors assigned to these offices coordinate the selection of
review sites with GC headquarters during the final quarter of each fiscal year. Also, Area
Directors designate review teams that include one or more PCRs within their respective
geographical areas. In FY 2009, GC conducted surveillance reviews of30 contracting
activities that had purchases totaling $17.3 billion. The 30 activities represented
1 percent of the 3,285 contracting activities that year and 3 percent of the total
procurement dollars for the 3,285 activities. The detailed list ofFY 2009 contracting
activities that had a surveillance review can be found in Appendix II.

In FY 2009, SBA had 60 PCRs responsible for monitoring the performance of
contracting activities, which includes conducting surveillance reviews. PCRs also
perform many other primary functions, such as: (1) conducting full reviews of purchase
requisitions, acquisition forecasts not set aside or proposed for competition by the
Contracting Officer, and subcontracting plans; (2) counseling small businesses through
outreach and training; and (3) reviewing proposed bundled acquisitions and making
recommendations to enhance small business participation for prime contracting
opportunities.

Surveillance reviews are intended to be comprehensive assessments of contracting
activities' small business programs. SBA's Standard Operating Procedure (SOP) 60 02 7
states that these reviews should assess the quality of a contracting activity's small
business program and its impact on small businesses, and recommend changes to
improve small business participation in the contracting activity's acquisition process.
Additionally, in FY 2009, SBA expanded the scope of the reviews to include an
evaluation of the activity's compliance with 8(a) award requirements and its monitoring
of contractor compliance with 8(a) requirements. The expansion was made in response to
a prior SBA Office ofInspector General (OIG) recommendation that 8(a) reviews be
regularly conducted to ensure contracting activities monitor and enforce compliance with
8(a) program regulations. s

Further, in response to contracting issues identified in SBA's OIG Management
Challenge reports, the Agency stated that surveillance reviews would address some of
those procurement problems. 6 Specific problem areas include assuring that contracting
activities: (1) provide adequate training to contracting personnel on small business
contract procedures, and (2) have accurate contractor size certifications procedures in
place, e.g., whether contract officers verified the on-line certifications made by
contractors in the governmental Online Representations and Certifications Application
(ORCA) prior to awarding contracts.




SSBA OIG-06-15, Audit ofMonitoring Compliance with 8(a) Business Development Regulations During 8(a) Business
 Development Contract Performance, March 16,2006.
6 SBA OIG, FY 2010 Reports on the Most Serious Management and Performance Challenges Facing the Small Business

 Administrations, October 15,2010. Additional fiscal year is FY 2009.



                                                      3
RESUL TS IN BRIEF
The FY 2009 surveillance reviews conducted by SBA did not adequately assess the small
business programs of contracting activities. The Agency did not use a systematic and
analytical process for establishing review priorities to ensure reasonable coverage of the
3,285 contracting activities. In some cases the rationale for selecting activities was
unrelated to the factors outlined in the SOP and candidates that should have been
considered were not recommended because of the limits placed on the number of
contracting activities that each area office could recommend for review. Also, in
selecting activities for review, SBA did not consider information in anomaly reports,
which are produced to identify discrepancies in small business reporting to FPDS.
Lastly, although a major purpose of the surveillance reviews is to monitor 8(a) delegated
contract execution authority, little consideration was given to 8(a) activity in selecting
procurement centers.

Additionally, the 30 surveillance reviews conducted in FY 2009 were superficial, limited
in scope, poorly documented, and untimely, and thus were inadequate for making
determinations about the effectiveness of the contracting activities' small business
programs or their compliance with small business rules. For 16 of the 30 surveillance
reviews 7 conducted in FY 2009, review teams used small judgmental samples to assess
the number and severity of deficiencies in contracting activities' acquisition processes.
For example, SBA reviewed only 29 of the over 4,400 contract actions of a contracting
activity that obligated more than $5 billion for the surveillance review period. As a
result, the small judgmental samples examined were not sufficient to establish with
certainty whether the activities complied with small business and 8(a) program
requirements.

The teams conducting the surveillance reviews also did not consistently or sufficiently
gather information needed to conduct their assessments and generally did not evaluate the
extent to which small businesses complied with the FAR performance of work
requirements. Consequently, teams may have missed deficiencies. Teams also did not
assess known problem areas and poorly documented their reviews, leaving it unclear how
reported deficiencies were identified. Adequate assessments were not made because
management did not give priority or dedicate sufficient resources to conduct more than a
minimal number of reviews, and review teams were given wide discretion in determining
the scope and content of reviews. As a result, the reviews were not effective as a
monitoring tool for determining whether contracting activities complied with small
business and 8(a) requirements.

Finally, SBA did not follow-up on prior recommendations to ensure that deficiencies
identified by surveillance review teams were corrected in a timely manner. According to
SBA, a lack of staff resources and competing priorities prevented the agency from doing
so. We followed up on the status of 45 recommendations made in 5 FY 2007 reports, and
65 recommendations made in 6 FY 2008 reports. We were told by SBA or contracting
activities' staff that corrective actions had been taken for only 61 of the 110

7Supporting documentation for the remaining surveillance review reports did not contain contract listings.



                                                           4
recommendations. Also, while some recommendations were addressed, SBA did not
determine in subsequent reviews whether actions taken were effective in correcting
deficiencies identified, leaving the small business programs at the contracting activities
vulnerable.

Based on the collaborative efforts of the OIG and GC management, the Agency took
steps to address some of the issues we identified in our audit. To further assist the
Agency in improving the quality of its surveillance review process, we made
12 recommendations in this report.

Management concurred with recommendations 1a - 1b, 2, 3, 5a - 5d, 6a - 6b, 7, and
partially concurred with recommendation 4. We consider management's comments to be
fully responsive to all of the recommendations.

RESULTS
SBA Did Not Adequately Assess the Small Business Programs of Contracting
Activities

The FY 2009 surveillance reviews conducted by SBA did not adequately assess small
business activities because: (1) it did not use a systematic and analytical process for
establishing review priorities and ensuring reasonable coverage for the more than
3,000 contracting activities; and (2) the reviews were superficial, limited in scope, poorly
documented, and untimely. This occurred because management did not give priority, or
dedicate sufficient resources, to conduct more than a minimal number of reviews, and
review teams were given wide discretion in determining scope and content of the review.
As a result, reviews were not effective as a monitoring tool for ensuring that contracting
activities comply with small business and 8(a) requirements.

SEA Lacks a Systematic and Analytical Process for Establishing Review Priorities

The Agency did not prioritize surveillance reviews from a national government-wide
perspective or utilize an analytical approach to determine the relative importance of the
over 3,000 contracting activities with small business contracting programs that were
candidates for review. Instead, according to GC headquarters officials, in FY 2009 SBA
decided to review 32 activities-which allowed the Agency to increase slightly the
number of reviews it had conducted in the previous year. 8 However, it conducted only 30
reviews because SBA could not schedule one of the reviews within the required time
frame, and another involved timber sales that did not qualify as a procurement activity.
Headquarters then divided up the number of reviews among the six area offices, as shown
in Table 1.




8 The number of reviews conducted in prior years was largely determined by the number ofPeRs assigned to each area
 office.



                                                        5
                                                    Table 1
                             Contracting Activities Selected for Review in FY 2009
                    GC Area Office         Number ofPCRs           No. of Activities Selected
                           I                         6                         4
                          II                        14                         6
                         III                        11                         6
                         IV                         10                         5
                         V                           9                         3
                         VI                         10                         6
                        Total                       60                        30
                          Source: Generated by the SBA OIG using data provided by SBA's Office of
                          Government Contracting.


In selecting contracting activities for review, SOP 60 02 7 directs area offices to consider
the:

     • 	 Availability of GC contracting staff who are within commuting distance of the
         buying agency, or other budgetary considerations;

     • 	 Contracting activity mission and acquisition workload;

     • 	 Small business program goal achievement and overall level of small business
         participation over the past two fiscal years;

     • 	 Experience indicating known or potential problems; and

     • 	 Changes in a contracting activity's acquisition policy.

In recommending activities for review, some area offices considered the volume of
contracts, complaints from small businesses, lack of prior reviews, and failure to meet
small business goals, among other factors. However, we noted in 15 cases that the
rationale for selecting activities was either unrelated to the factors in the SOP or related
to the factor on budgetary consideration or commuting distance, which may not have
identified the best candidates for review. For example, interviews with Area Directors
disclosed that two activities undergoing base realignments/closures were selected because
SBA wanted to determine how to reassign PCRs given expected changes in contracting
activity. Three were selected based on low travel costs and another four were selected
because the PCRs assigned to the activities were new. While these may be valid
concerns for an area director's activities, they are unrelated to a determination of whether
a particular procuring activity presents a high risk to the proper achievement of small
business goals. Furthermore, SBA's selection approach did not provide a means of
determining the relative importance of the review candidates because the SOP did not
weigh the importance of the selection criteria and allowed area offices wide discretion in
which criteria to use in selecting activities for review.

Moreover, SBA generally did not use "anomaly reports" to identify contracting activities
with questionable small business reporting practices. 9 These reports, which are produced

9Priorto FY 2009 surveillance reviews, anomaly reports were produced at the Federal procurement activity level and
 not at the individual contracting activity level.



                                                          6
by the Government Contracting and Business Development staff, identify discrepancies
in small business data reported in Federal Procurement Data System (FPDS-NG) by
contracting activities and are provided to contracting activities so that they can check for
potentially miscoded procurement actions. For example, FPDS may report a contract's
North American Industry Classification System lO (NAICS) code as 11110, which is
soybean farming, while ORCA, which is a database that contains business size
certifications, may show the NAICS code for the business as 541512, which is computer
systems design services. This inconsistency would suggest that the contracting activity
may not have accurately reported its small business contracts. Although several
surveillance review reports mentioned anomaly reports or issues related to ORCA, PCRs
told us that they did not use the anomaly reports to select FY 2009 activities for review.
Given that the Government has missed its 23-percent small business contracting goal for
past 2 years, and there has been significant data reliability issues involving small business
activity reported in FPDS, surveillance reviews could be an important tool to identify and
fix reporting problems, and provide better assurance that contracting agencies are
properly measuring their small business goal achievements.

Finally, SBA did not consider or use any analysis of 8(a) contracting data or related
information in selecting potential procuring activities. As discussed below, surveillance
reviews should be assessing the adequacy of 8(a) contract execution functions.

Because SBA lacks a systematic and analytical process for prioritizing candidates, it may
not have directed its limited surveillance review resources in an effective manner. Over
the past 7 years, SBA has assessed the small business programs of only 154 of the more
than 3,000 contracting activities. We believe that SBA needs to develop and implement a
strategy that prioritizes all contracting activities that may not be maximizing Federal
procurement opportunities for small businesses to undergo a surveillance review.

Surveillance Reviews were Superficial, Limited in Scope, Poorly Documented, and
Untimely

Our examination of the 30 surveillance reviews disclosed that they were superficial,
limited in scope, poorly documented and untimely. Surveillance reviews were:
(1) superficial because they relied on small judgmental samples; (2) limited in scope
because review teams did not consistently gather information needed to conduct their
assessments; (3) poorly documented because identified report deficiencies were not
clearly explained in the supporting documentation; and (4) untimely because reports sat
in headquarters for a significant amount of time before being released to contracting
activities.

            Reliance on Small Judgmental Samples Resulted in Superficial Reviews that
            Prevented SBA Teams from Drawing Meaningful Conclusions

The surveillance SOP requires the selection of enough contract files to permit detection
of significant trends and to establish valid findings. However, most of the review teams

10   NAICS are codes assigned to all economic activity or industry within twenty broad sectors. SBA uses NAICS codes
     to establish size standards for whether a business is small and eligible for Federal programs.



                                                          7

relied on small judgmental samples of contracts from varying time periods ll occurring
between FY 2006 and May 2009 to assess the number and severity of deficiencies in the
acquisition processes of contracting activities reviewed. The judgmental sampling
process cannot be relied upon to form conclusions about the population being sampled.
Therefore, the small judgmental samples examined by the review teams were not
sufficient to establish with certainty whether the activities complied with the FAR and
8(a) requirements.

Because only 16 of the review teams documented the sampling universe, we could not
determine the percentage of contract actions reviewed for all 30 teams. As shown in
Table 2 below, the 16 teams sampled between less than 1 to 19 percent of the total
contract actions. While generally a higher percentage of contract actions were sampled
for activities that had less than 1,000 contract actions during the period reviewed, the
limited percentage of actions sampled appeared to be driven by the number of days that
the review team was on site and team size, versus the volume of contracting activity. For
example, in one instance SBA reviewed only 29 of more than 4,400 contract actions of an
activity that obligated more than $5 billion during the period reviewed.

                                                  Table 2
       Percentage of Contract Actions Sampled from 16 Contracting Activities Ranging from 2 to 4 veal's
 Total Contract          Contract                       Small Business     Size of Reyiew       Number of
    Actions          Actions Sampled     Percentage      Procurement            Team          Day(s) On-Site
        63                       8                 l3%                $556M                    5                      I
       124                      24                 19%                $535M                    ~
                                                                                               .1

       211                      21                 10%                $128M                    2
       220                      39                 18%                $185M                    ~
                                                                                               .1                    4
       267                       15                 6%                $242M                    ~
                                                                                               .1


       286                       17                 6%                $500M                    ~
                                                                                               .1


       367                       11                 3~,'o              SliM                    ~
                                                                                               .1                    4
       633                      "')0
                                ..;. . .,)          4%                $654M                    ~
                                                                                               .1


       748                      40                  5~,'o             $758M                    4
       795                       19                 2°'0                SIB                    2
      1.190                     31                  3~,'o               SIB                    ~
                                                                                               .1


      1.584                     50                  3~,'o              SI6B                    ~
                                                                                               .1


      1.642                     20                  1%                  S4B                    ~
                                                                                               .1


      2.261                     36                  2~,'o               S6B                    ~
                                                                                               .1                    5
      2.915                     31                  1%                  S4B                    5
      4.419                     29                 <1%                  S5B                    ~
                                                                                               .1

Source: Generated by the SBA OIG based on analysis of documentation SUpportlllg FY 2009 surveillance revIews provided by SBA's
OUice of Govemment Contracting.




Sample sizes varied and were arbitrarily determined because SBA's surveillance review
guidance requires review teams to analyze only enough contracts to detect significant
trends and ensure that their findings are valid. The guidance does not state a minimum


ll Reviews of 18 contracting activities examined contracts over 4 years or more: and 12 reviews covered less than 4
 years of contracting activity.



                                                              8
percentage for determining a sample size when deciding the validity of findings.
Consequently, in the absence of definitive guidance, review teams relied on their
judgment to determine sample sizes.

Additionally, the surveillance guidance instructs that review teams should plan to spend 1
to 1 liz days on site reviewing contract actions. PCRs we interviewed told us that the time
allowed on site, in addition to the small size of the review teams, limited the number of
contract actions they could review. For example, one team was able to review only 21 of
the 57 contract actions it selected for review. Some PCRs suggested that one way to
improve the surveillance review process is to extend the on-site review.

       Scope of Reviews Was Limited Due to Insufficient Data Collected to Support
       Conclusions

Surveillance review teams did not consistently gather the information needed to conduct
their assessments and did not assess known problem areas, including work performance
requirements. Review teams were expected to collect information for their assessments
by fully completing an interview checklist and a contract analysis checklist. However,
review teams did not collect all of the requested data on the contract analysis checklist or
interview checklist, thus impairing sound conclusions on the small business programs at
the contracting activities. For example, teams did not ask the contracting activity's
procurement staff all of the interview questions. Some review teams did not use the
interview checklist and one team only asked the contracting activity procurement staff
three questions because they believed that all questions did not have to be addressed as
the SOP indicated that the checklists contained sample questions.

We also observed that most teams used a streamlined contract analysis checklist that, in
some instances, had entire sections that were left blank. We discussed our observations
with GC management and found that their expectations were not consistent with review
guidance. SBA should revise SOP 60 02 7 to clarify that review teams must address all
interview and contract analysis questions.

Review teams also did not always evaluate contract files for longstanding problem areas
identified by past OIG reports. Examples of these problem areas include contracts
intended for small businesses that were: (1) "pass through" contracts awarded to small
businesses, but the work was then subcontracted to large businesses, or (2) misapplication
of the size standard which occurred when a contracting officer designated an incorrect
NAICS code, thereby potentially qualifying a large business as a small business, or
(3) errors by the contracting activity in entering data into FPDS relating to size of the
business. Prior to this audit, GC management informed SBA OIG that surveillance
reviews would address known problem areas, through validation ofNAICS codes and
verification of the on-line size certifications that contractors enter into ORCA.

Based on our review of the surveillance review reports and supporting documentation, we
found, however, that teams did not always check the size of businesses awarded small
business contracts by verifying that the contracting officers validated the size of the
business in ORCA. Of the 30 reports, 8 addressed ORCA, size standards, or NAICS



                                             9

deficiencies. Supporting documents for the remaining 22 were inconclusive on whether
the teams reviewed procuring activities' proper use of ORCA certifications and NAICS
for determining size requirements. Without the verification of the appropriateness of the
NAICS codes and company size listed, contracts intended for small businesses could be
awarded to businesses that do not qualify as small.

         Reviews Did Not Assess Compliance with 8(a) Partnership Agreements

A March 16, 2006 OIG audit report found that neither SBA nor procuring agencies
ensured that 8(a) companies complied with applicable regulations when completing 8(a)
contracts.12 The audit report recommended that SBA regularly conduct surveillance
reviews of procuring agencies' monitoring and enforcement of regulations relating to 8(a)
contracts. SBA advised that it would incorporate 8(a) requirements into these
surveillance reviews. One area of concern was that contracting officers were not
monitoring "performance of work" requirements which establish limits on how much
work can be subcontracted. 13

On September 26, 2008, SBA issued a procedural notice 14 revising Chapter 4
of SOP 60 02 7. The SOP revision required teams to assess how well contracting
activities performed the responsibilities of their 8(a) partnership agreements in
monitoring 8(a) firm compliance. Although Chapter 4 was revised, the SOP appendices
were not updated to include revisions. As a result, 8(a) revisions were not included in:
(1) the contract analysis and interview checklists, (2) documents used by the review
teams to gather data, and (3) the report template, which was used to report results. The
procedural notice expired September 1,2009, without finalizing the revisions to the SOP.

In our review of the 2009 surveillance reviews, we noted review teams generally did not
evaluate the extent to which contracting officers monitored the performance of 8(a)
contracts to ensure that small businesses completed the required share of work in the
contract. FAR and SBA regulations require small businesses to perform established
percentages of work based on the type of contract. However, only 2 of the 30 reviews
conducted in FY 2009 had documentation showing that the reviewer examined whether
contracting personnel were monitoring performance of work requirements involving 8(a)
contracts. For one of the two cases, the review team reported there was no evidence that
the contracting officer made an effort to monitor the percentage of work performed by the
small business. The other example involved an 8(a) joint venture where the review team
concluded that there was no way of tracking the percentage of work performed by the
8(a) firm.

As noted above, Procedural Notice 8000-632, was in effect for most ofFY 2009. Based
on this, a Government Contracting and Business Development senior official told us that
review teams were expected to check for monitoring of compliance with performance of


12SBA 01G-06-15, Audit ofMonitoring Compliance with 8(a) Business Development Regulations During 8(a) Business
 Development Contract Performance, March 16,2006.
13 13CFR 125.6, Prime contractor performance requirements (limitations on subcontracting).
14Procedural Notice 8000-632, "How do I Perform a Surveillance Review?" September 26, 2008.




                                                      10
work requirements on contracts awarded to 8(a) firms and were also expected to ensure
that monitoring occurred for all small businesses.

            Poorly Documented Supporting Documentation Did Not Clearly Convey
            Identified Report Deficiencies

Review teams reported deficiencies that were not always documented by the team.
Specifically, teams did not always prepare interview notes, or analyses of contract files to
support information reported on the surveillance reviews checklists. Further, some of the
checklists were not fully completed and did not always identify deficiencies in the
contract files to support report conclusions. Other than the contract analysis and
interview checklists, additional supporting documentation varied, including print-outs of
contract actions and correspondence, such as emails. Documentation was poor because
the SOP does not guide staff on what to document during the surveillance review. It only
guides staff on what to review and verify in the contract files. According to GC
management, review teams were expected to fully complete checklists. However, our
review of documentation supporting the 30 surveillance reviews conducted in FY 2009
found that the teams generally modified and created their own checklists, and in seven
instances did not use the interview checklist at all. In addition, we interviewed PCRs that
completed the streamlined contract analysis checklist differently from other PCRs. The
streamlined contract analysis checklist contains specific actions with a box beside each
for the review team to check. However, the directions for the checklist do not instruct
review teams when to check the box, if the actions were taken or not on the checklist. As
a result, PCRs had to use their own judgment on the checklists, resulting in some PCRs
marking boxes if the action applied to that particular contract, while others did not.

Further, the SOP requires PCRs to submit their back-up documentation to the respective
Area Directors after GC Headquarters management distributes the surveillance review
report to the contracting activity. However, we found that not all review teams retained
their supporting documentation, which could potentially aide PCRs in future monitoring
of the contracting activities. For example, supporting documentation for four
surveillance review reports that were all completed in the same district area had been
destroyed, while several PCRs told us that they retain their checklists, evaluative write-
ups, and analyses of contract files for at least 3 years to use in monitoring the contracting
activity. SBA should be explicit in how review teams should document information
found during the on-site review and provide guidance on retaining the information.

            Results Were Not Communicated Timely

Our analysis of the elapsed time for the 30 surveillance review reports lS issued in FY
2009 showed that delays occurred between the time that teams submitted their reports to
headquarters for review, and the time they were issued to contracting activities. For
example, as shown in Table 3, headquarters took 3 to 7 months to review and issue 11
reports. However, because of the untimely release of the reports, PCRs did not know
when to expect corrective actions to be taken, thereby delaying the follow-up process.


lS We   were not able to calculate the elapsed time for 6 of the 30 reports due to incomplete date information.



                                                             11 

We believe that report issuance delay sends the wrong message to contracting activities
that there is no sense of urgency to correct the identified deficiencies.

                                               Table 3
                   Time Elapsed Between Headquarters Receipt Date and Mailing Date
                           For Select FY 2009 Surveillance Review Reports
                     Report Received in        Report Mailed to       Elapsed Time
                       Headquarters                 Agency                (mos.)
                         08il22009                 03i03i201O                 7
                         09i08i2009                03i03i201O                 6
                         09i28i2009                03i03i201O                 5
                         09i03i2009                02il6i2010                 5
                         0724i2009                 12il6i2009                 5
                         09ilOi2009                OL25i201O                  4
                         08i27i2009                1223i2009                  4
                         07il3i2009                I L23i2009                 4
                          IOi06i2009               01i08i201O                 3
                          IOi01i2009               01i08i201O                 3
                         09iOL2009                 12i022009                  3
                 Source: Generated by the SBA OIG using data provided by SBA"s OtTice of
                 Government Contracting


GC headquarters staff told us that delays occurred in their review of the reports because
they often faced competing priorities and reviewing the reports was not always a top
priority. Further, while the SOP provided specific timelines for some aspects of the
surveillance review process, such as requiring that draft reports be submitted to
headquarters 30 days after an exit briefing with the contracting activity, the guidance did
not include timelines for headquarters review and issuance of the reports. In the future,
SBA should develop a plan to ensure that surveillance review reports are issued in a
timely manner.

       SBA Did Not Give Priority or Dedicate Sufficient Resources to Surveillance
       Reviews

SBA's six area offices had limited resources to perform surveillance reviews. Of the
60 PCRs assigned to the area offices, 39 PCRs conducted reviews in FY 2009. The
remaining PCRs performed size determinations, certificates of competencies, and other
primary tasks. GC management emphasized that surveillance reviews are not the PCRs
main responsibility. PCRs consider surveillance reviews a good tool to assess
contracting activities' small business contracting practices. However, both SBA and GC
management did not give sufficient priority and resources to conduct an effective
surveillance review program.

Follow-up on Previous Recommendations 'Vas Not Conducted

GC officials reported that surveillance review teams were expected to follow-up on
previous recommendations when conducting surveillance reviews. Based on our review
of the FYs 2007 and 2008 Summary Action Reports (SAR) submitted by contracting
activities, only 61 of the 110 recommendations were addressed. Of the 61
recommendations addressed, 57 were implemented and 4 were not implemented. No
SARs were received to address the remaining 49 recommendations. SARs contain


                                                  12
planned actions to correct deficiencies and areas of noncompliance. We interviewed
some PCRs about the report recommendations without SARs, however, they were not
aware of the status for those recommendations. Some of the PCRs didn't have a clear
understanding of what was required for follow-up and stated that their workload limited
their time for follow-up. A summary of the recommendations that were not addressed is
presented in Appendix III.

SBA has no established policy requiring that follow-up be conducted. SOP 60 02 7 states
that the surveillance review process should result in improvements to the contracting
activity's acquisition process, but does not require that surveillance review teams follow-
up. Some PCRs we interviewed voluntarily conducted follow-up as part of their daily
monitoring of contracting activities to determine whether corrective actions were
implemented. PCRs also told us there was no established process or clear responsibility
placed on anyone to monitor the correction of the identified deficiencies.

Additionally, a lack of staff resources and competing priorities prohibited SBA from
following up on the status of recommendations. While surveillance reviews are an
important tool to monitor small business contracting, they are not legislatively mandated.
Consequently, surveillance reviews took a backseat to statutory tasks PCRs were required
to do within specific time frames. Some statutory tasks included handling size
determination requests and verifying certificates of competency. As a result, GC
management told us that surveillance reviews were " ... nice to have, but not a priority."

Without a formal follow-up process, SBA lacks assurance that contracting activities are
taking the required steps to improve their small business programs and may not be
targeting problem areas with continuing problems for attention during subsequent
reviews. While the Agency plans to perform 10 follow-up surveillance reviews in FY
2010 16 to determine whether corrective actions have been taken to address previous
findings, SBA needs to revise its SOP and establish a formal follow-up process.

Other Observations

The surveillance review SOP directs GC staff to assign ratings to contracting activities
that categorize the quality and effectiveness of its small business programs. The SOP
identifies five rating categories-outstanding, highly satisfactory, satisfactory, marginally
satisfactory, and unsatisfactory-that can be assigned based on deficiencies noted in the
review checklists. However, the definitions for each of the rating categories are vague
and subjective. For example, reviewers are instructed to rate the activity as outstanding if
it "has no major deficiencies," yet the SOP does not define or give examples of 'major
deficiencies.' As a result, review teams were left to use their own judgment, creating a
lack of consistency in assigned ratings.

GC management told us they were aware of the need for improvements in the rating
criteria and were planning to better define the ratings. In April 2010, GC held a
conference attended by Area Directors and PCRs nationwide, in which it addressed


16 These   reviews will include contracting activities that received a past rating of Marginally Satisfactory or less.



                                                               13 

among other things, the inconsistencies and subjectivity in the process of assigning
surveillance review ratings. However, no additional guidance has been forthcoming. We
encourage GC management to modify the definitions of ratings to minimize subj ectivity
in the process and ratings assigned.

Conclusion
Surveillance reviews conducted in FY 2009 to evaluate small business programs at
contracting activities were not as effective as they could have been in monitoring small
business and 8(a) compliance. SBA's SOP 60 02 7 provided unclear guidance to GC
review teams on how to perform surveillance reviews. Review teams evaluated small
sample sizes of contracting activities, which did not provide a sufficient amount of data
to evaluate the contracting activities' small business program. Additionally, the limited
information collected was poorly documented by review teams and difficult to link how it
supported conclusions made in the surveillance review report. Lastly, since surveillance
reviews were not legislatively mandated, the reviews were not a priority for SBA. While
GC officials have taken steps to address some of the inadequacies we identified in our
audit, more actions need to be taken.

RECOMMENDATIONS
We recommend that the Associate Administrator for Government Contracting and
Business Development take the appropriate steps to:

   1. 	 Amend SBA's selection criteria to:

       lao    Include errors identified in GC's anomaly reports, data on 8(a) contracting
              activity, and inquiries to SBA's 8(a) Business Development staff on
              suspected problems on 8(a) contract execution.

       lb.    Eliminate those criteria that do not indicate risk with the contracting
              activity, i.e. availability to staff within commuting distance.

   2. 	 Develop and implement a strategy that ensures contracting activities that meet
        SBA's selection criteria are identified, prioritized on a nation-wide basis and
        targeted for a surveillance review.

   3. 	 Determine (a) the level of effort needed to establish an effective monitoring
        process for small business procurement activities and (b) the amount of resources
        needed to implement such a process.

   4. 	 Based on the results from recommendation #3, request resources from the Agency
        or through the annual budget process as appropriate.

   5. 	 Revise Chapter 4, How Do 1 Perform a Surveillance Review? and corresponding
        appendices, and update SOP 60 02 7, Prime Contracts Program, to:




                                             14 

       5a. 	   Include (1) 8(a) Business Development Program specific requirements as
               identified in the Partnership Agreements and Procedural Notice 8000-632;
               and (2) 8(a) Business Development Program in Appendix 7, Analysis of
               Contract Files and Appendix 8, Interview Questions.

       5b. 	   Modify definitions of rating categories to minimize subjectivity within
               each rating category, including examples of major and minor deficiencies.

       5c. 	   Establish a formal follow-up process that ensures that PCRs receive copies
               offinal reports and follow up on deficiencies and recommendations.

       5d. 	   Update Appendix 8, Interview Questions, of SOP 60 02 7, Prime
               Contracts Program, to include GC's unofficial modified interview
               checklist that contains more open-ended questions.

   6. 	 Issue written instructions to remind surveillance review teams to:

       6a. 	   Address all interview and contract review checklist questions.

       6b. 	   Evaluate whether contracting activities are monitoring the performance of
               work requirements on the contracts that they administer.

   7. 	 Develop and implement a plan to ensure that surveillance review reports are
        issued to the contracting activity that was reviewed within a specific timeframe.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On February 24,2011, we provided a draft of this report to SBA's Office of Government
Contracting and Business Development for comment. On March 30,2011, the Associate
Administrator for Government Contracting and Business Development provided formal
comments, which are contained in their entirety in Appendix IV. Management agreed
with recommendations 1a - 1b, 2, 3, 5a - 5d, 6a. - 6d, 7, and partially agreed with
recommendation 4. The Agency's comments and our evaluation of them are summarized
below.

Recommendations la. - lb.

Management Comments

Management concurred with the recommendations. Management stated that it will re-
write Chapter 4 of Standard Operating Procedure (SOP) 60 02 7 -Prime Contracts on
Surveillance Reviews, which will include a more standardized analytical approach and
methodology to be applied to surveillance reviews on a nation-wide basis. Further,
management stated that it will explore establishing a headquarters based team to review
all Area Director's proposed surveillance review recommendations to ensure
conformance to the revised SOP requirements for surveillance reviews.



                                            15
DIG Response

We consider management comments to be responsive to the recommendations.

Recommendation 2

Management Comments

Management concurred with the recommendation and will establish clear, concise and
standardized selection criteria through the revision of SOP 60 02 7.

DIG Response

We consider management comments to be responsive to the recommendation.

Recommendation 3

Management Comments

Management concurred with the recommendation. Management stated that it will
develop a more effective monitoring process by establishing and implementing a
standardized and analytical approach for performing surveillance reviews. Further,
management stated that it will perform a resource assessment to implement such a
process.

DIG Response

We consider management comments to be responsive to the recommendation.

Recommendation 4

Management Comments

Management partially agreed with the recommendation and stated that it will determine
the appropriate course of action after it completes process changes and a resource
assessment.

DIG Response

Management comments appear to be responsive to our recommendation; however, we
will obtain more details on the corrective actions during the audit follow-up process.




                                           16
Recommendations 5a. - 5d.

Management Comments

Management concurred with the recommendations and stated that it will make the
necessary changes in the re-write of SOP 60 02 7.

DIG Response

We consider management comments to be responsive to the recommendations.

Recommendations 6a. - 6b.

Management Comments

Management concurred with the recommendations and stated that it will incorporate the
requirements outlined in the recommendations in the SOP re-write.

DIG Response

We consider management comments to be responsive to the recommendations.

Recommendation 7

Management Comments

Management concurred with the recommendation and stated that it will incorporate the
requirement outlined in the recommendation in the re-write of SOP 60 02 7.

DIG Response

We consider management comments to be responsive to the recommendation.

ACTIONS REQUIRED
Please provide your management decision for each recommendation on the attached SBA
Form 1824, Recommendation Action Sheet, within 30 days from the date of this report.
Your decision should identify the specific action(s) taken or planned for each
recommendation and the target dates(s) for completion.

We appreciate the courtesies and cooperation of the Small Business Administration
during this audit. If you have any questions concerning this report, please call me at
(202) 205-6586 or Riccardo R. Buglisi, Director, Business Development Programs Group
at (202) 205-7489.




                                          17
APPENDIX I. SCOPE AND METHODOLOGY 


The audit objectives were to determine whether: (1) SBA small business and 8(a)
surveillance reviews adequately assessed the small business programs of contracting
activities; and (2) appropriate action were taken to ensure that areas of non-compliance
were corrected in a timely manner.

To determine SBA's authority and responsibility to conduct surveillance reviews, we
examined legislation and regulations that authorize the Agency to review the small
business programs of Federal agencies.

To determine the universe of contracting activities and the respective Federal
procurement dollars for FY 2009, we obtained data from the Agency that was retrieved
from FPDS-NG. Although prior studies have determined FPDS-NG data to be inaccurate
and incomplete, we relied on the information as it was the official and only source for
data on Federal obligations to small businesses.

To determine the adequacy of SBA's assessment, we evaluated 30 FY 2009 surveillance
review reports and the supporting documentation assigned to contracting activities, based
on the Agency criteria. 17 We examined the guidance used by review teams including
Chapter 4 of SOP 60 02 7, Prime Contracts Program and corresponding appendices. We
compared each review team's use of checklists, sampling methodologies, and rating
criteria to determine consistency in performing the assessments. We interviewed SBA's
GC headquarters staff and its six GC Area Directors to determine the Agency's strategy
for annually selecting contracting activities for review. Additionally, we interviewed 14
of the Agency's 60 Procurement Center Representatives to determine the extent to which
review teams were consistent in their approach to the surveillance review process.
Finally, we analyzed information from GC's internal surveillance review tracking
database to calculate the amount of time elapsed between headquarters' receipt of the
draft review reports for FY 2009 and issuance of those reports to procuring agencies.

To determine the appropriateness and timeliness of actions taken by SBA and/or
contracting activities, we selected 11 contracting activities which received surveillance
reviews in FYs 2007 and 2008 and had a significant number of deficiencies and
recommended corrective actions. For the selected contracting activities, we interviewed
the Procurement Center Representatives that served as team leaders or were assigned to
the contracting activities to determine SBA's follow-up process and the extent to which
corrective actions had been taken by the contracting activities. When PCRs were not able
to comment on actions taken to correct deficiencies, we interviewed contracting activity
personnel that knew or should have known the extent to which action had been taken.




17Although SBA reports conducting 32 reviews, we excluded 2 reviews because one review was difficult to arrange
 with the contracting activity and the other review was for a contracting activity that sells timber, which was not a
 procurement activity.



                                                        18
The audit was performed between August 2009 and August 2010 in accordance with
Government Auditing Standards prescribed by the Comptroller General of the United
States.




                                         19
            APPENDIX II. CONTRACTING ACTIVITIES THAT RECEIVED
            SURVEILLANCE REVIEWS IN FY 2009
     Dept/Agency                            Contracting Activity                              Location

  Dept of Agriculture       Forest Service, Southern Region, Region 8              Atlanta, GA
                            Army Communications-Electronics, Life Cycle
    Dept of Defense         Management Command                                     Fort Monmouth, NJ
                            Army Joint Munitions & Lethality Life Cycle
                            Management Command                                     Picatinny Arsenal, NJ
                            Army Research Development, and Engineering
                            Command                                                Aberdeen Proving Ground, MD
                            Marine Corps Installations East                        Camp Lejeune, NC
                            30th Space Wing Contracting Squadron                   Vandenberg Air Force Base, CA
                            Army Rock Island Arsenal Joint Manufacturing
                            Technology Center                                      Rock Island, IL
                            Army Material Command, TACOM Life Cycle
                            Management Command                                     Watervliet Arsenal, NY
                            50th Contracting Squadron, Schriever AFB               Colorado Springs, CO
                            Dept ofthe Army, Mission and Installation
                            Contracting                                            Fort Sill, OK
                            Army Corps of Engineers, Louisville District           Louisville, KY
                            Army Corps of Engineers                                Alaska District, AK
                            3rd Contracting Squadron                               Elmendorf Air Force Base, AK
                            Defense Information Technology Contracting
                            Organization                                           Pacific, Pearl Harbor, Hawaii
                            Naval Inventory Control Point                          Philadelphia, PA
                            Defense Supply Center Philadelphia                     Philadelphia, PA
                            Mission and Installation Contracting Command           Fort Meade, MD
                            Dept of Air Force, Brooks City AFB, Center of
                            Engineering and the Environment                        San Antonio, TX
                            Army Corps of Engineers                                St. Paul, MN
                            Army Corps of Engineers, Sacramento District           Sacramento, CA
    Dept of Energy          Savannah River Operations                              Aiken, SC
                            Office of Acquisitions Management Regional
     Dept of State          Procurement Support Office                             Fort Lauderdale, FL
 Dept of Transportation     Small Business Programs                                Washington, DC
Dept of Veterans Affairs    V A Medical Center                                     Washington, DC
                            Office of Acquisition and Material Management,
                            National Acquisition Center                            Hines,IL
Environmental Protection
        Agency              Cincinnati Procurement Operations Division             Cincinnati, OH
                            Region 4, Office of Acquisition Management             Atlanta, GA
    General Services
     Administration         New England Region                                     Boston, MA
                            Great Lakes Region V                                   Chicago,IL
                            Federal Acquisition Services                           Kansas City, MO
           Source: Generated by the OIG usmg list ofFY 2009 Surveillance Reviews




                                                                20
 APPENDIX III: UNADDRESSED RECOMMENDATIONS FROM
 SAMPLED SURVEILLANCE REVIEW REPORTS FOR
 FISCAL YEARS 2007 AND 2008
   Contracting Activity                                     Recommendation

Army Corps of Engineers,                   •   Require all subcontracting plans to contain
Kansas City, MO                                numerical values for small business programs as
                                               required by FAR 19.704(a)(1).
                                           •   Develop a procedure for submitting solicitations that
                                               require subcontracting plans and forward to Chief of
                                               Small Business who will then forward to the Small
                                               Business Administration PCR for review prior to
                                               issuance in Fed Biz Ops.
                                           •   Provide training for the contracting staff that will
                                               develop their knowledge of FAR Part 19 and other
                                               aspects of the Small Business Program.




Department of Veterans                     •   Establish regularly scheduled training at least
Affairs, Miami, FL                             annually to address subcontracting program
                                               compliance.
 Source: Generated by the orG based on analysIs.




                                                     21
APPENDIX IV: AGENCY COl\;Il\<IENTS

                                   U.S. 5'..1ALL r;                            u,,' r;~:~;s              A Df,ll/'.: 1ST 17ATIOtl
                                                    'r lr' ......   5 f-I ~ ~ •. :::: -;-:::- ~ ,   D ,r.:: , : :- C~ 1(i




    I'vlE!vlOlZj\NDlI r-.1

    Date:             '-'lardl3D,10ll

    TO;               Pdc;]" Mcdinloch. Deputy lllsp~uur Gl'rlcral

                      Offi':l' uf the: In'irectOi Ccncral

    From:         Joseph G. Jurdan..\i\i(rCB])       [FOIA ex. 6]
        [FOIA ex. 6]
                  JolUl Klein. ActiIll: Director. GC [FOIA ex. 6]
        [FOIA ex. 6]          ,      "
                      l~ffcctivCllC,S ofthc             Small                   BlI~im'ss Adminislrati(JIl's Surveillance Pr,1C<:O;S




    The Olflc(" of GOVCfIUl\CIlt COIllraciing & BlI~illess Devtlopmcllt (GCI3D) is pleaseJ 10
    prcJviJc the rilllowing Tcspon:,e to Ihe dnlf\ rcpot1 mtit led "EITedivenes.' olthc Small
    nUSillC"~   ,\dministriltiOll'" Surv,·jjhUlC(.·l'f(KCSS".l'rujecL No, <)(112,



          I. 	 :\menJ GC's sele-:tion cl' iteda to:

              la. 	   Indude c-nor~ id<'milic"d in ce';; anomaly rC-rlnr1s, data Of) 8(a) COTl lrClc1ing
                      nClivily, and inquirii.!~ to SI1A's X(S) nu~inc'3'3 fkvclopmcnt statTon
                      SUSPL:Cll:U probl~ms un 8(a) C()I1lri3l:l c:>:cculion;


              Ib, 	   Fl ~rnilla1c UlOSC crikcia                       th<11 clUlIut i11l1icale                         risk Voiilh   Cl'ntracting acti\"j(v,
                      i.t .. <1"ail"bility   t()   SLilY'vvitllin cOillIllutin!" distallce,

          We concur with the above recommendations and will re-write Chapter 4 of
          St:md:U"l1 Oper:lfing Pro.:'t'dure (SOP) 60 02 7 - Prime CQlltrads Prugntm on
          Sun'l:ilhHl~C Hcvicw~. The re-writc will ilH:ludc a mon~ standardized analytical
          appr(lath and methodology to be apphcd t() sur.ciJlanfc n,.icws on a natiull-
          wide basb. Addition~II}', we arc cXJ)loriujiI; the possibility of cslahlishin~ a
          headquartt'f!( ha.~ed team to revie\'\' all Area nirectnr'~ propn~ed sUfvfillanct'
          re'riew recnmmelldatioTl~ to ell.'OlIre C1Hlformance to the ct'\'iscd SO!'
          reqllit"ement~ for suneill:mtc ]'rvifWS.


          2 	 Ikvcl(1p dnd imrkment           it   s(ralcg~ thall'lhun,s cnnlracl.in,; aCl.ivij, i C'~ thai IlH=el
             GCs selection crite-ria me ldcntitkd, I'rioriti7cd on a I1nti0n,widc r,asis and
             1:"lgI;L~d il.lr H ~llrv<:'illal1ce review,




                                                                                      22
\\'10 COriC U r   wi th the ahove recollllllendation and wi II t'sta hlish clear,                             C.OIIC ist'   and
~tandardizcd ~clcction        criteria through tht n :vision ofS(W (in 01 7.

3. 	 Dektmint      (:1) level of eff..:,.! nteded to est;'"LbJj~h an dl"cC"livt' moniwring Pl"(I.:tSS
    lur ~mall bu~iIli::SS procuremcnt <lCliVl liC":,; ilnd (bl rhe: <lmn\lnt nf ["("sources needed
    to i III ple-ment sue h a proces~.

We concur with thc above recommendation and wilJ develop a more effecti . . . e
monicoring llroccss b)' establishing and implementing il standardized and
:1nalytil-al approach to he !lpplied when performing sm'\eilhtlll'e reliews. This
will includ .. an a~~es~ment ()f prclI.'css rCWUfNs,

4. 	 B<:IseJ oJll the re ~ulb lrom rcl.:ommellJati0 Il /13. ro::-q ues!                [ <:::' OLU\.:et>   li"IJIu the Agency
     (II" tlmlugh tht" all llual huJg:el rmlcess as appro prla Le.


\Vc partially agree nith thi..; recommcndatiun. \V(: will dHermine the
appropriate course of al;:tion after we have completed process change~ and a
resource assessment.

S. 	 l\.l;'vinv Chapter 4. Hcm          ])0 j P,·ljr.II'm (/ ,)"url'c i!/ol/CC R Cl'ic l.l ~'       And cllrrt':>p unding
    appendices. and llpdJ.te SOP 60 U2                  "7.   Prime Contr<1cts Program to:

     Sa. 	    lndud~   ill 8(ej') BU:SjJlb~ Dev d opntt'llt Pr(Jg.r~1[J] :-,p~, ·.,ilc recluin::IIlI;'JJls as
              identifieJ in the I \mn~rshir Agreements Procedural ~()tice SUOO-td2; anu
              (2) X(a) I1Llsinc.~.' Dcwlnpmc ilt Program il1 . \prcndix 7,Jf]u()'.lis 0/
              C'antra{'f Fiiu; and-\rrctldlX ~, f! l ter1'i.:].1" Quc.<;tin/ls.

              \\'{' ('oll('ur wifl, thi~ recnmmend:ltion and will emu rt- (he
              i lIeoqwratioJl of !'.uch in the rc-nrite of SOP 60 ()2 7.

    5b. 	     l\lodify ddlnitions of rating c1.legorics to minimize subiec-tivity within
              each rating {:atcgor'Y, including c·xa.fllrk.~ elf rn~ic~ r and minor deficiencies .

              \Ve concur with the ahove recommrndation and will make th['
              necessary ch.angcs in the rc-writl' {If SOP 60 027.

    5c. 	         rstablish   d fp r l11a]   !"()llow-up   PI"OC<;':;:;   th<d   ens ures   lhaL   PCl~s re.:<:' i v~   (opi(:s
              ot" tilu] reports Jnd follow lip on dd1.c i,: n l.~ ks (lnd rccommcndnrions.

              \Ve C()lll~lIr "jlh this re('ulllmeudatiQn and "'iIl make ne..:~".,al~·
              pron'!)s rh.mgl's.

     5d. 	    Updilte Appendix 8. Inltrview                   Qu~sl i ~ms,       "fSOP GO 02 7, Prime
              C,!l1 l l"acl~ "PrograllL II.)     include (i{'"~ UIIUllici,1l [[l o ciili..:d illlel ' \j~:~\
              check li st thai contains more opcn-nldcd questions




                                                              23
               \Ve conc-ur ,'tith this n't>ommcndatiun :mu will update Appendix 8 of
               the SOP (lntervit:''''' ()Ut'StiOllS) to incorpomte current l'herklb. of
               questlom.

(j   1s~lJ~ written inslrucliuns 10        remind sUf\'<;-illallce    revi~\\' k:lHlS 10:




               We COn~uf' '''''itb tbi~ recummendatioD. This requiremcDt will lie
               im'orporated into Ihl~ SOl-' nmrih.'.

     6b. 	     E"l:aiuJ.tC' whether cOlltr.1cring. activities [irc monitnring the pcrfnrnwnc.c (If
               \\urk. rcquiro;:men ts un lht: lXIl1trads lhaL lh~y adm inlskr.

               \Vc C!lnCur- \,,,ith thi~ n:cummendation. Thi:" requirement wiJL                         tJl~
               incorporated into the SOP l·c-lYrite.

     Dt\dop and illlpl~lIlent a plan to C'mur~ tk~1 snrn·ilLuH.:e n :\'it'l\ [epon~ ~m~
     i.s!im~d \l) 111(.: .;onLlac(in~ 'jdl\. l l~' thal W~1~ n..:(,:~:i\\':d wi lhin ~1 sp~:~:ifi(,: (imeframe ,


     \Vc concur with .hili rc£ommcnd3tion and will inc.fH·pnrati: this requirement
     into Ih~ rc-wrjlC of SOP 60 02 7.




                                                           24
